   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



November 15, 2011

Report Number: A-07-11-00371

Mr. Jerry Feilmeier
Vice President, Government Programs
Blue Cross Blue Shield of Nebraska
1919 Aksarben Drive
Omaha, NE 68106

Dear Mr. Feilmeier:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Nebraska for Fiscal Years 1995 Through 2008.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00371
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jerry Feilmeier

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


REVIEW OF PENSION COSTS CLAIMED
FOR MEDICARE REIMBURSEMENT BY
   BLUE CROSS BLUE SHIELD OF
   NEBRASKA FOR FISCAL YEARS
       1995 THROUGH 2008




                        Daniel R. Levinson
                         Inspector General

                         November 2011
                         A-07-11-00371
                           Office of Inspector General
                                             http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                          Notices


     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

  Section 8L of the Inspector General Act, 5 U.S.C. App., requires
  that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

  The designation of financial or management practices as
  questionable, a recommendation for the disallowance of costs
  incurred or claimed, and any other conclusions and
  recommendations in this report represent the findings and
  opinions of OAS. Authorized officials of the HHS operating
  divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Nebraska (BCBS Nebraska) administered Medicare Part A operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated effective November 30, 2007.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that BCBS Nebraska claimed
for Medicare reimbursement for fiscal years (FY) 1995 through 2008.

SUMMARY OF FINDINGS

BCBS Nebraska claimed $111,621 of unallowable pension costs for Medicare reimbursement for
FYs 1995 through 2008. The overclaim occurred because BCBS Nebraska based its claim on
incorrectly computed CAS-based pension costs. BCBS Nebraska claimed pension costs of
$1,345,247 for Medicare reimbursement; however, we determined that the allowable CAS-based
pension costs were $1,233,626, a difference of $111,621.

RECOMMENDATION

We recommend that BCBS Nebraska either revise its Final Administrative Cost Proposals for
FYs 1995 through 2008 to reduce claimed Medicare Part A pension costs by $111,621 or refund
this amount to CMS.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Nebraska concurred with our recommendation
and said that it intends to include the reduction of Medicare Part A pension costs as part of the
global settlement of the contractor termination costs associated with its terminated Medicare
contract. BCBS Nebraska’s comments are included in their entirety as Appendix B.




                                                 i
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Blue Cross Blue Shield of Nebraska ....................................................................... 1
              Medicare Reimbursement ....................................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 1
               Objective ................................................................................................................. 1
               Scope ....................................................................................................................... 1
               Methodology ........................................................................................................... 2

FINDING AND RECOMMENDATION .................................................................................... 2

          FEDERAL REQUIREMENTS ........................................................................................... 2

          UNALLOWABLE PENSION COSTS CLAIMED ........................................................... 3

          RECOMMENDATION ...................................................................................................... 4

          AUDITEE COMMENTS.................................................................................................... 4

APPENDIXES

   A: ALLOWABLE MEDICARE PENSION COSTS FOR
      BLUE CROSS BLUE SHIELD OF NEBRASKA
      FOR FISCAL YEARS 1995 THROUGH 2008

   B: AUDITEE COMMENTS




                                                                     ii
                                      INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Nebraska

Blue Cross Blue Shield of Nebraska (BCBS Nebraska) administered Medicare Part A operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated effective November 30, 2007.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS-based pension costs and allocates a
share to Medicare. Under the separate calculation method, the contractor separately identifies
the pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that BCBS Nebraska claimed
for Medicare reimbursement for FYs 1995 through 2008.

Scope

We reviewed $1,345,247 of pension costs that BCBS Nebraska claimed for Medicare
reimbursement on its Final Administrative Cost Proposals (FACP) for FYs 1995 through 2008.
Achieving our objective did not require that we review BCBS Nebraska’s overall internal control
structure. However, we reviewed the internal controls related to the pension costs claimed for
Medicare reimbursement to ensure that the pension costs were allocable in accordance with the
CAS and allowable in accordance with the FAR.

We performed fieldwork at BCBS Nebraska’s office in Omaha, Nebraska, during August 2010.




                                               1
Methodology

We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit.
Additionally, we reviewed information provided by BCBS Nebraska to identify the amount of
pension costs claimed for Medicare reimbursement for FYs 1995 through 2008. We also
determined the extent to which BCBS Nebraska funded CAS-based pension costs with
contributions to the pension trust fund and accumulated prepayment credits. We based our
calculations on separately computed CAS-based pension costs for the Medicare segment and the
“Other” segment. The CMS Office of the Actuary calculated the allocable pension costs based
on the CAS and on the results of our segmentation review (Review of the Qualified Pension Plan
at Blue Cross Blue Shield of Nebraska, A Terminated Medicare Contractor, for the Period
January 1, 1994, to November 30, 2007, A-07-11-00370).

In our review, we used information that BCBS Nebraska’s actuarial consulting firms provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined BCBS Nebraska’s accounting
records, pension plan documents, annual actuarial valuation reports, and Department of
Labor/Internal Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

BCBS Nebraska claimed $111,621 of unallowable pension costs for Medicare reimbursement for
FYs 1995 through 2008. The overclaim occurred because BCBS Nebraska based its claim on
incorrectly computed CAS-based pension costs. BCBS Nebraska claimed pension costs of
$1,345,247 for Medicare reimbursement; however, we determined that the allowable CAS-based
pension costs were $1,233,626, a difference of $111,621.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.




                                               2
CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

UNALLOWABLE PENSION COSTS CLAIMED

BCBS Nebraska claimed $111,621 of pension costs that were not allowable for Medicare
reimbursement. During FYs 1995 through 2008, 1 BCBS Nebraska claimed pension costs of
$1,345,247 for Medicare reimbursement. We calculated the allowable Medicare Part A pension
costs based on separately computed CAS-based pension costs for the Medicare segment and the
“Other” segment in accordance with CAS 412 and 413. We determined that the allowable CAS-
based pension costs for FYs 1995 through 2008 were $1,233,626.

The table below compares allowable CAS-based pension costs with the pension costs claimed on
BCBS Nebraska’s accounting documents. Appendix A contains additional details on allowable
pension costs.

              Comparison of Allowable Pension Costs and Claimed Pension Costs

                                          Medicare Pension Costs
                                                            Claimed by
                                          Allowable           BCBS
                        Fiscal Year       Per Audit          Nebraska       Difference
                           1995               36,692             37,597           (905)
                           1996               47,363             42,191           5,172
                           1997               55,049             49,428           5,621
                           1998               30,594             12,952          17,642
                           1999               46,818             23,537          23,281
                           2000               22,613             29,885         (7,272)
                           2001               68,987             79,605        (10,618)
                           2002              112,908            118,633         (5,725)
                           2003              158,411            162,179         (3,768)
                           2004              163,952            160,156           3,796
                           2005              169,262            182,670        (13,408)
                           2006              182,471            241,033        (58,562)
                           2007              121,779            180,985        (59,206)
                           2008               16,727             24,396         (7,669)
                           Total          $1,233,626         $1,345,247     ($111,621)

The Medicare contracts require BCBS Nebraska to calculate pension costs for Medicare
reimbursement in accordance with CAS 412 and 413. BCBS Nebraska based its claim for
Medicare reimbursement on CAS-based pension costs. However, because BCBS Nebraska

1
 The allowable pension costs for FY 2008 were attributable to the pension costs for October 1, 2007, through
November 30, 2007.



                                                        3
computed pension costs incorrectly, it overstated those CAS-based pension costs. As a result,
BCBS Nebraska claimed Medicare Part A pension costs in excess of allowable CAS-based
pension costs of $111,621.

RECOMMENDATION

We recommend that BCBS Nebraska either revise its FACPs for FYs 1995 through 2008 to
reduce claimed Medicare Part A pension costs for FYs 1995 through 2008 by $111,621 or refund
this amount to CMS.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Nebraska concurred with our recommendation
and said that it intends to include the reduction of Medicare Part A pension costs as part of the
global settlement of the contractor termination costs associated with its terminated Medicare
contract.

BCBS Nebraska’s comments are included in their entirety as Appendix B.




                                                 4
APPENDIXES
                                                                                                    Page 1 of 6

                         APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR

                                BLUE CROSS BLUE SHIELD OF NEBRASKA

                                 FOR FISCAL YEARS 1995 THROUGH 2008


                                                            Total        "Other"       Medicare       Total
     Date                    Description                   Company       Segment       Segment       Medicare

     1994         Plan Year Allowable Pension Cost    1/                 $1,013,727      $53,287

     1995         Contributions                       2/   $1,230,359    $1,227,196       $3,163
                  Discount for Interest               3/     ($54,902)     ($54,761)       ($141)
January 1, 1995   Present Value Contributions         4/   $1,175,457    $1,172,435       $3,022
                  Prepayment Credit Applied           5/     $756,099      $716,509      $39,590
                  Present Value of Funding            6/   $1,931,556    $1,888,944      $42,612

January 1, 1995   CAS Funding Target                  7/    $813,810      $771,198       $42,612
                  Percentage Funded                   8/                   100.00%       100.00%
                  Funded Pension Cost                 9/                  $771,198       $42,612
                  Allowable Interest                 10/                    $2,554          $141
                  Allocable Pension Cost             11/                  $773,752       $42,753
                  Medicare LOB* Percentage           12/                     1.19%        60.82%
                  Plan Year Allowable Pension Cost   13/                    $9,208       $26,002

                  Fiscal Year Allowable Pension      14/                    $9,947       $26,745         $36,692

     1996         Contributions                            $1,809,348    $1,798,118      $11,230
                  Discount for Interest                     ($111,724)    ($111,031)       ($693)
January 1, 1996   Present Value Contributions              $1,697,624    $1,687,087      $10,537
                  Prepayment Credit Applied                $1,212,754    $1,167,611      $45,143
                  Present Value of Funding                 $2,910,378    $2,854,698      $55,680

January 1, 1996   CAS Funding Target                       $1,495,811    $1,440,132      $55,679
                  Percentage Funded                                         100.00%      100.00%
                  Funded Pension Cost                                    $1,440,132      $55,679
                  Allowable Interest                                        $16,408         $634
                  Allocable Pension Cost                                 $1,456,540      $56,313
                  Medicare LOB* Percentage                                    1.12%       62.33%
                  Plan Year Allowable Pension Cost                          $16,313      $35,100

                  Fiscal Year Allowable Pension                            $14,537       $32,826         $47,363

     1997         Contributions                            $1,363,148    $1,363,148           $0
                  Discount for Interest                      ($60,176)     ($60,176)          $0
January 1, 1997   Present Value Contributions              $1,302,972    $1,302,972           $0
                  Prepayment Credit Applied                $1,357,200    $1,286,593      $70,607
                  Present Value of Funding                 $2,660,172    $2,589,565      $70,607

January 1, 1997   CAS Funding Target                       $1,357,200    $1,286,593      $70,607
                  Percentage Funded                                         100.00%      100.00%
                  Funded Pension Cost                                    $1,286,593      $70,607
                  Allowable Interest                                             $0           $0
                  Allocable Pension Cost                                 $1,286,593      $70,607
                  Medicare LOB* Percentage                                    0.91%       63.10%
                  Plan Year Allowable Pension Cost                          $11,708      $44,553

                  Fiscal Year Allowable Pension                            $12,859       $42,190         $55,049
                                                                                              Page 2 of 6



                                                      Total        "Other"       Medicare       Total
     Date                    Description             Company       Segment       Segment       Medicare

     1998         Contributions                              $0            $0           $0
                  Discount for Interest                      $0            $0           $0
January 1, 1998   Present Value Contributions                $0            $0           $0
                  Prepayment Credit Applied          $1,063,660    $1,044,074      $19,586
                  Present Value of Funding           $1,063,660    $1,044,074      $19,586

January 1, 1998   CAS Funding Target                 $1,063,660    $1,044,074      $19,586
                  Percentage Funded                                   100.00%      100.00%
                  Funded Pension Cost                              $1,044,074      $19,586
                  Allowable Interest                                       $0           $0
                  Allocable Pension Cost                           $1,044,074      $19,586
                  Medicare LOB* Percentage                              0.86%       66.68%
                  Plan Year Allowable Pension Cost                     $8,979      $13,060

                  Fiscal Year Allowable Pension                       $9,661       $20,933         $30,594

     1999         Contributions                        $613,300      $579,959      $33,341
                  Discount for Interest                ($41,990)     ($39,707)     ($2,283)
January 1, 1999   Present Value Contributions          $571,310      $540,252      $31,058
                  Prepayment Credit Applied            $591,614      $558,980      $32,634
                  Present Value of Funding           $1,162,924    $1,099,232      $63,692

January 1, 1999   CAS Funding Target                 $1,154,685    $1,090,992      $63,693
                  Percentage Funded                                   100.00%      100.00%
                  Funded Pension Cost                              $1,090,992      $63,693
                  Allowable Interest                                  $33,916       $1,980
                  Allocable Pension Cost                           $1,124,908      $65,673
                  Medicare LOB* Percentage                              0.90%       68.45%
                  Plan Year Allowable Pension Cost                    $10,124      $44,953

                  Fiscal Year Allowable Pension                       $9,838       $36,980         $46,818

     2000         Contributions                       $763,778      $750,093       $13,685
                  Discount for Interest               ($61,576)     ($60,473)      ($1,103)
January 1, 2000   Present Value Contributions         $702,202      $689,620       $12,582
                  Prepayment Credit Applied             $8,981        $8,409          $572
                  Present Value of Funding            $711,183      $698,029       $13,154

January 1, 2000   CAS Funding Target                  $206,550      $193,396       $13,154
                  Percentage Funded                                  100.00%       100.00%
                  Funded Pension Cost                               $193,396       $13,154
                  Allowable Interest                                 $11,793          $802
                  Allocable Pension Cost                            $205,189       $13,956
                  Medicare LOB* Percentage                             0.76%        73.32%
                  Plan Year Allowable Pension Cost                    $1,559       $10,233

                  Fiscal Year Allowable Pension                        $3,700      $18,913         $22,613
                                                                                                Page 3 of 6


                                                      Total          "Other"       Medicare       Total
     Date                    Description             Company         Segment       Segment       Medicare

     2001         Contributions                      $10,116,000    $10,055,579      $60,421
                  Discount for Interest                ($794,923)     ($790,175)     ($4,748)
January 1, 2001   Present Value Contributions         $9,321,077     $9,265,404      $55,673
                  Prepayment Credit Applied             $550,050       $532,621      $17,429
                  Present Value of Funding            $9,871,127     $9,798,025      $73,102

January 1, 2001   CAS Funding Target                  $2,307,073     $2,233,971      $73,102
                  Percentage Funded                                     100.00%      100.00%
                  Funded Pension Cost                                $2,233,971      $73,102
                  Allowable Interest                                   $108,461       $3,549
                  Allocable Pension Cost                             $2,342,432      $76,651
                  Medicare LOB* Percentage                                0.49%       99.90%
                  Plan Year Allowable Pension Cost                      $11,478      $76,574

                  Fiscal Year Allowable Pension                          $8,998      $59,989         $68,987

     2002         Contributions                      $15,100,000    $15,100,000           $0
                  Discount for Interest              ($1,246,789)   ($1,246,789)          $0
January 1, 2002   Present Value Contributions        $13,853,211    $13,853,211           $0
                  Prepayment Credit Applied           $3,123,897     $3,022,348     $101,549
                  Present Value of Funding           $16,977,108    $16,875,559     $101,549

January 1, 2002   CAS Funding Target                  $3,123,897     $3,022,348     $101,549
                  Percentage Funded                                     100.00%      100.00%
                  Funded Pension Cost                                $3,022,348     $101,549
                  Allowable Interest                                         $0           $0
                  Allocable Pension Cost                             $3,022,348     $101,549
                  Medicare LOB* Percentage                                0.65%      100.00%
                  Plan Year Allowable Pension Cost                      $19,645     $101,549

                  Fiscal Year Allowable Pension                        $17,603       $95,305        $112,908

     2003         Contributions                      $18,750,000    $18,750,000           $0
                  Discount for Interest              ($1,466,103)   ($1,466,103)          $0
January 1, 2003   Present Value Contributions        $17,283,897    $17,283,897           $0
                  Prepayment Credit Applied           $5,162,613     $5,022,939     $139,674
                  Present Value of Funding           $22,446,510    $22,306,836     $139,674

January 1, 2003   CAS Funding Target                  $5,162,613     $5,022,939     $139,674
                  Percentage Funded                                     100.00%      100.00%
                  Funded Pension Cost                                $5,022,939     $139,674
                  Allowable Interest                                         $0           $0
                  Allocable Pension Cost                             $5,022,939     $139,674
                  Medicare LOB* Percentage                                0.62%      100.00%
                  Plan Year Allowable Pension Cost                      $31,142     $139,674

                  Fiscal Year Allowable Pension                        $28,268      $130,143        $158,411
                                                                                               Page 4 of 6


                                                      Total          "Other"       Medicare      Total
     Date                    Description             Company         Segment       Segment      Medicare

     2004         Contributions                       $5,500,000     $5,500,000           $0
                  Discount for Interest                ($430,876)     ($430,876)          $0
January 1, 2004   Present Value Contributions         $5,069,124     $5,069,124           $0
                  Prepayment Credit Applied           $5,693,770     $5,556,555     $137,215
                  Present Value of Funding           $10,762,894    $10,625,679     $137,215

January 1, 2004   CAS Funding Target                  $5,693,770     $5,556,555     $137,215
                  Percentage Funded                                     100.00%      100.00%
                  Funded Pension Cost                                $5,556,555     $137,215
                  Allowable Interest                                         $0           $0
                  Allocable Pension Cost                             $5,556,555     $137,215
                  Medicare LOB* Percentage                                0.44%      100.00%
                  Plan Year Allowable Pension Cost                      $24,449     $137,215

                  Fiscal Year Allowable Pension                        $26,122      $137,830       $163,952

     2005         Contributions                       $9,300,000     $9,300,000           $0
                  Discount for Interest                ($673,251)     ($673,251)          $0
January 1, 2005   Present Value Contributions         $8,626,749     $8,626,749           $0
                  Prepayment Credit Applied           $6,584,998     $6,413,834     $171,164
                  Present Value of Funding           $15,211,747    $15,040,583     $171,164

January 1, 2005   CAS Funding Target                  $6,584,998     $6,413,834     $171,164
                  Percentage Funded                                     100.00%      100.00%
                  Funded Pension Cost                                $6,413,834     $171,164
                  Allowable Interest                                         $0           $0
                  Allocable Pension Cost                             $6,413,834     $171,164
                  Medicare LOB* Percentage                                0.42%       84.63%
                  Plan Year Allowable Pension Cost                      $26,938     $144,856

                  Fiscal Year Allowable Pension                        $26,316      $142,946       $169,262

     2006         Contributions                               $0             $0           $0
                  Discount for Interest                       $0             $0           $0
January 1, 2006   Present Value Contributions                 $0             $0           $0
                  Prepayment Credit Applied           $6,603,788     $6,389,094     $214,694
                  Present Value of Funding            $6,603,788     $6,389,094     $214,694

January 1, 2006   CAS Funding Target                  $6,603,788     $6,389,094     $214,694
                  Percentage Funded                                     100.00%      100.00%
                  Funded Pension Cost                                $6,389,094     $214,694
                  Allowable Interest                                         $0           $0
                  Allocable Pension Cost                             $6,389,094     $214,694
                  Medicare LOB* Percentage                                0.38%       75.34%
                  Plan Year Allowable Pension Cost                      $24,279     $161,750

                  Fiscal Year Allowable Pension                        $24,944      $157,527       $182,471
                                                                                                                         Page 5 of 6


                                                                     Total             "Other"          Medicare            Total
         Date                       Description                     Company            Segment          Segment            Medicare

         2007            Contributions                                       $0                $0                $0
                         Discount for Interest                               $0                $0                $0
    January 1, 2007      Present Value Contributions                         $0                $0                $0
                         Prepayment Credit Applied                   $5,681,434        $5,507,774          $173,660
                         Present Value of Funding                    $5,681,434        $5,507,774          $173,660

    January 1, 2007      CAS Funding Target                          $5,681,434        $5,507,774          $173,660
                         Percentage Funded                                                100.00%           100.00%
                         Funded Pension Cost                                           $5,507,774          $173,660
                         Allowable Interest                                                    $0                $0
                         Allocable Pension Cost                                        $5,507,774          $173,660
                         Medicare LOB* Percentage                                           0.24%            50.18%
                         Plan Year Allowable Pension Cost                                 $13,219           $87,143

                         Fiscal Year Allowable Pension                                    $15,984          $105,795          $121,779

    January 1, 2008      Fiscal Year Allowable Pension       15/                           $2,203           $14,524           $16,727


   * Line of business.

ENDNOTES

 1/ We obtained the 1994 calendar year allocable pension cost and the Medicare line of business (LOB) from our prior review
    (A-07-95-01167). We computed the plan year allowable Medicare pension cost as the allocable pension cost multiplied by the
    Medicare LOB percentage.

 2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
    contributions included deposits made during the plan year and accrued contributions deposited after the end of the plan year but
    within the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the
    pension segmentation review (A-07-11-00370). The amounts shown for the “Other” segment represent the difference between
    the Total Company and the Medicare segment.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount
    the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the
    difference between the present value of contributions (at the valuation interest rate) and actual contribution amounts.

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of
    the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to have been made on the
    final day of the plan year, consistent with the method mandated by the Employee Retirement Income Security Act.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is
    created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A
    prepayment credit is carried forward, with interest, to fund future CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding
    that is available to cover the CAS funding target measured at the first day of the plan year.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal 

    Acquisition Regulation (FAR) 31.205-6(j)(2)(i). 

                                                                                                                       Page 6 of 6

 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the plan year.
    Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1)
    (as amended), the funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding
    divided by the CAS funding target. For purposes of illustration, the percentage of funding has been rounded to four decimal
    places.

 9/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as
    the interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with
    FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding
    target, less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.


11/ The allocable CAS-based pension cost is the amount of pension cost that may be allocated for contract cost purposes.

12/ We calculated plan year allowable pension costs of the Medicare and “Other” segments based on the Medicare LOB percentage
    of each segment. We determined the LOB percentages based upon information provided by Blue Cross Blue Shield of Nebraska
    (BCBS Nebraska).

13/ We computed the plan year allowable Medicare pension cost as the allocable pension cost multiplied by the Medicare LOB
    percentage.

14/ We converted the plan year allowable pension costs to a fiscal year basis (October 1 through September 30). We calculated the
    fiscal year pension costs as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs. Pursuant to CAS 412 and 413, the
    total Medicare allowable pension costs charged to the Medicare contract consisted of the Medicare segment’s direct pension costs
    plus “Other” segment pension costs attributable to indirect Medicare operations.

15/ BCBS Nebraska terminated its Medicare contract on November 30, 2007. Therefore, we computed the fiscal year allowable
    pension costs for the BCBS Nebraska Medicare segment for October 1, 2007, through November 30, 2007, by taking 2/12 of the
    plan year 2007 allowable pension costs.
                        APPENDIX B: AUDITEE COMMENTS 





••      BlucCrossBlueShield
        of Nebraska
        P.O. Box 3248
        Omaha. Nebraska 68180-0001
        www.bcbsnc.com




November 4, 2011

Report Number: A-07-ll-00371

Patrick J. Cogley 

Regional Inspector General for 

   Audit Services 

Department of Health & Human Services 

Region VII 

Room 0429 

60 I East 12'" Street 

Kansas City, Missouri 64106 




Dear Mr. Cogley:

Enclosed is the Blue Cross Blue Shield of Nebraska response to the U.S. Department of Health and
Human Services, Office of Inspector Genera! (OIG,) draft report entitled Review 0/ Pension Costs
Claimed/or Medicare Reimbursement by Blue Cross Blue Shield 0/ Nebraska/or Fiscal Years 1995
Through 2008.

We are in concurrence with your recommendation. However, since Blue Cross Blue Shield of Nebraska
is no longer a Medicare contractor, we do not have access to the CMS CAFM system to resubmit the
FACP. Our intent will be to include the reduction of Medicare Part A pension costs for FYs 1995
through 2008 as part of the global settlement of the contractor termination costs associated with our
terminated Medicare contract.

If you have any questions or comments related to our response, please do not hesitate to contllct me llt
(402) 982-8824.

Sincerely,


,~~3~~
Jerry Feilmeier 

Vice President, Government Programs 





             Blue Crn" and Blue Shield oOM"aska;$ an Independent Lic~lI.e. of the Blue Cra.. and Blue Shield Associ'lm"
